Office of Material Loss Reviews
Report No. MLR-10-013


Material Loss Review of Cooperative Bank,
Wilmington, North Carolina




                                  January 2010
                                     Executive Summary

                                     Material Loss Review of Cooperative Bank,
                                     Wilmington, North Carolina
                                                                                    Report No. MLR-10-013
                                                                                             January 2010

Why We Did The Audit

On June 19, 2009, the North Carolina Office of the Commissioner of Banks (North Carolina
Commissioner) closed Cooperative Bank (Cooperative), Wilmington, North Carolina, and named the
FDIC as receiver. On July 6, 2009, the FDIC notified the Office of Inspector General (OIG) that
Cooperative’s total assets at closing were $973.6 million and that the estimated loss to the Deposit
Insurance Fund (DIF) was $215.2 million. As of December 11, 2009, the estimated loss to the DIF had
increased to $216.1 million. Pursuant to section 38(k) of the Federal Deposit Insurance (FDI) Act, the
OIG conducted a material loss review of the failure of Cooperative.

The audit objectives were to (1) determine the causes of Cooperative’s failure and resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Cooperative, including the FDIC’s implementation
of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

Cooperative was chartered in January 1898 as a mutual savings institution under the name of Cooperative
Building and Loan Association. The FDIC became Cooperative’s primary federal regulator in October
1992, following the institution’s conversion to a state-chartered savings bank. Cooperative again changed
its charter to that of a state commercial bank effective December 30, 2002. Cooperative’s lending
activities focused primarily on commercial real estate (CRE) and acquisition, development, and
construction (ADC) of residential properties in the coastal and inland areas of eastern North and South
Carolina. These lending markets, which were largely dependent on beach and summer tourism, began to
experience a decline in residential building activity prior to 2008.

In addition to a main office in Wilmington, North Carolina, Cooperative operated a loan production office
and 23 additional branch offices extending from Kill Devil Hills on the Outer Banks of North Carolina to
Myrtle Beach, South Carolina. Cooperative also had one subsidiary, the Lumina Mortgage Company,
Inc., which originated and sold residential loan mortgage products. Cooperative was wholly-owned by
Cooperative Bankshares, Inc. (Bankshares), a publicly-traded, one-bank holding company. Collectively,
the institution’s directors and officers controlled approximately 34 percent of Bankshares.


Audit Results

Causes of Failure and Material Loss

Cooperative failed because its Board and management did not adequately manage the risk associated with
the institution’s aggressive real estate lending, particularly in the area of residential ADC. Weak loan
underwriting, credit administration, and related monitoring practices were key causes of the loan quality
problems that developed when economic conditions in the institution’s lending markets deteriorated. In
addition, Cooperative did not have adequate contingency funding plans to mitigate the risk associated
with its heavy dependence on wholesale funding sources, particularly Federal Home Loan Bank
borrowings and brokered deposits. Such funding sources, which were used to support rapid growth in the


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Cooperative Bank,
                                      Wilmington, North Carolina
                                                                                       Report No. MLR-10-013
                                                                                                January 2010

institution’s loan portfolio, became restricted when Cooperative’s credit risk profile deteriorated in the
fall of 2008. Also contributing to Cooperative’s failure was a weak internal audit program.

By the close of 2008, weaknesses in Cooperative’s risk management practices had translated into a
significant decline in the quality of the institution’s loan portfolio, especially its ADC loans. The
provisions and losses associated with this decline depleted the institution’s earnings, eroded its capital,
and strained its liquidity. The North Carolina Commissioner closed Cooperative in June 2009 due to a
lack of sufficient capital and liquidity to support the institution’s operations.

The FDIC’s Supervision of Cooperative

The FDIC, in conjunction with the North Carolina Commissioner, provided ongoing supervision of
Cooperative by conducting regular on-site risk management examinations and performing offsite
monitoring procedures. Through these supervisory efforts, the FDIC identified key risks in Cooperative’s
operations and brought these risks to the attention of the institution’s Board and management in
examination reports. Such risks included Cooperative’s rapid loan growth and credit concentrations;
weak loan underwriting, credit administration, and related monitoring practices; an inadequate internal
audit program; risky funds management practices; and apparent violations of regulations and policy.

The FDIC determined that Cooperative’s overall financial and operational condition was generally
satisfactory prior to the November 2008 examination and did not impose an enforcement action until
March 2009. The FDIC generally relied on recommendations in examination reports to address the
institution’s weak risk management practices identified by examiners before November 2008. In
retrospect, a stronger supervisory response at earlier examinations, particularly during the July 2006
examination, to address Cooperative’s weak risk management practices may have been prudent. Such a
response could have included lowering the institution’s supervisory rating and/or issuing an enforcement
action that required the Board and management to (1) commit to a written plan and timeline for
addressing the key risks identified by the examiners and (2) provide the FDIC with written progress
reports detailing the institution’s actions relative to the plan. Earlier and stronger supervisory action may
have influenced Cooperative’s Board and management to constrain its excessive risk-taking, thereby
mitigating, to some extent, the losses incurred by the DIF.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for Cooperative.


Management Response

The Director, Division of Supervision and Consumer Protection (DSC), provided a written response to a
draft of this report on January 6, 2010. The DSC Director’s response reiterates key causes of
Cooperative’s failure discussed in the report and notes that the Board failed to implement risk
management recommendations made by regulators. The response also cites supervisory activities,
discussed in the report, that were undertaken to assess and address risks at the institution prior to its
failure.




                                  To view the full report, go to www.fdicig.gov
                                 Contents
                                                                         Page

Background                                                                 2

Causes of Failure and Material Loss                                        3
  Rapid Growth and ADC Lending                                             3
  Loan Underwriting, Credit Administration, and Related Monitoring         6
  Reliance on Wholesale Funding Sources                                    8
  Internal Audit Program                                                   9

The FDIC’s Supervision of Cooperative                                     10
   Supervisory History                                                    11
   Supervisory Response to Key Risks                                      12
   Implementation of PCA                                                  14

Corporation Comments                                                      15

Appendices 
  1. Objectives, Scope, and Methodology                                   17
  2. Glossary of Terms                                                    19
  3. Acronyms                                                             21
  4. Corporation Comments                                                 22

Tables
   1. Selected Financial Information for Cooperative                       2
   2. On-site Examinations of Cooperative                                 11
   3. Cooperative’s Capital Levels Relative to PCA Thresholds for Well    15
         Capitalized Institutions

Figures
   1. Composition and Growth of Cooperative’s Loan Portfolio               4
   2. Cooperative’s ADC Concentration Compared to Peer Group               5
   3. Cooperative’s Net Non-Core Funding Dependence Ratio                  8
         Compared to Peer Group
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     January 6, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Cooperative Bank, Wilmington,
                                          North Carolina (Report No. MLR-10-013)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Cooperative
Bank (Cooperative), Wilmington, North Carolina. The North Carolina Office of the
Commissioner of Banks (North Carolina Commissioner) closed the institution on
June 19, 2009, and named the FDIC as receiver. On July 6, 2009, the FDIC notified the
OIG that Cooperative’s total assets at closing were $973.6 million and the estimated loss
to the Deposit Insurance Fund (DIF) was $215.2 million. As of December 11, 2009, the
estimated loss to the DIF had increased to $216.1 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Cooperative’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision2 of Cooperative, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of
Cooperative’s failure and the FDIC’s efforts to ensure that Cooperative’s Board of
Directors (Board) and management operated the institution in a safe and sound manner.
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised
institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of financial institution failures are identified in our material
loss reviews, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of DSC’s
supervision program and make recommendations as warranted. Appendix 1 contains
details on our objectives, scope, and methodology; Appendix 2 contains a glossary of
terms; and Appendix 3 contains a list of acronyms. Appendix 4 contains the
Corporation’s comments on this report.


Background
Cooperative was chartered in January 1898 as a mutual savings institution under the
name of Cooperative Building and Loan Association. The FDIC became Cooperative’s
primary federal regulator in October 1992, following the institution’s conversion to a
state-chartered savings bank. Cooperative again changed its charter to that of a state
commercial bank effective December 30, 2002. Cooperative’s lending activities focused
primarily on commercial real estate (CRE) and acquisition, development, and
construction (ADC) of residential properties in the coastal and inland areas of eastern
North and South Carolina. These lending markets, which were largely dependent on
beach and summer tourism, began to experience a decline in residential building activity
prior to 2008.

In addition to a main office in Wilmington, North Carolina, Cooperative operated a loan
production office and 23 additional branch offices extending from Kill Devil Hills on the
Outer Banks of North Carolina to Myrtle Beach, South Carolina. Cooperative also had
one subsidiary, the Lumina Mortgage Company, Inc., which originated and sold
residential loan mortgage products. Cooperative was wholly owned by Cooperative
Bankshares, Inc. (Bankshares), a publicly-traded, one-bank holding company.
Collectively, the institution’s directors and officers controlled approximately 34 percent
of Bankshares. Table 1 summarizes selected financial information pertaining to
Cooperative for the quarter ended March 31, 2009, and for the 5 preceding calendar
years.

Table 1: Selected Financial Information for Cooperative
Financial Measure        Mar-09      Dec-08      Dec-07       Dec-06      Dec-05     Dec-04
Total Assets ($000s)     $966,778   $950,491     $926,359    $859,626    $745,802   $550,107
Gross Loans and
Leases ($000s)           $850,109   $890,113     $825,787    $768,057    $650,695   $462,704
Total Deposits ($000s)   $768,479   $696,321     $715,458    $662,404    $570,398   $414,954
Federal Home Loan
Bank (FHLB)
Borrowings ($000s)       $158,058   $148,059     $123,066    $116,072    $105,077    $78,083
Brokered Deposits
($000s)                  $112,340   $137,554     $82,349      $69,657     $20,659      -0-
Source: Uniform Bank Performance Reports (UBPR) and Consolidated Reports of Condition and Income
        (Call Report) for Cooperative.




                                                2
Causes of Failure and Material Loss
Cooperative failed because its Board and management did not adequately manage the risk
associated with the institution’s aggressive real estate lending, particularly in the area of
residential ADC. Weak loan underwriting, credit administration, and related monitoring
practices were key causes of the loan quality problems that developed when economic
conditions in the institution’s lending markets deteriorated. In addition, Cooperative did
not have adequate contingency funding plans to mitigate the risk associated with its
heavy dependence on wholesale funding sources, particularly FHLB borrowings and
brokered deposits. Such funding sources, which were used to support rapid growth in the
institution’s loan portfolio, became restricted when Cooperative’s credit risk profile
deteriorated in the fall of 2008. Also contributing to Cooperative’s failure was a weak
internal audit program.

By the close of 2008, weaknesses in Cooperative’s risk management practices had
translated into a significant decline in the quality of the institution’s loan portfolio,
especially its ADC loans. The provisions and losses associated with this decline depleted
the institution’s earnings, eroded its capital, and strained its liquidity. The North Carolina
Commissioner closed Cooperative in June 2009 due to a lack of sufficient capital and
liquidity to support the institution’s operations.

Rapid Growth and ADC Lending

Cooperative’s lending activities focused almost exclusively on real estate. Between
December 31, 2004 and March 31, 2009, the institution ranked in the 97th percentile or
higher relative to its peer group3 for concentrations in real estate loans based on average
gross loans and leases. Cooperative also grew its loan portfolio at a rapid pace during
this period, from approximately $463 million at the end of 2004 to $850 million by
March 31, 2009. Much of this growth was fueled by ADC lending for residential
properties in the coastal and inland areas of eastern North Carolina. Figure 1 illustrates
the general composition and growth of Cooperative’s loan portfolio in the years
preceding the institution’s failure. As reflected in the figure, ADC loans grew more than
6-fold during this period, from about $64 million to $404 million.




3
  Financial institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and
whether the institution is located in a metropolitan or non-metropolitan area. Cooperative’s peer group
included institutions with assets between $300 million and $1 billion.


                                                      3
Figure 1: Composition and Growth of Cooperative’s Loan Portfolio

  Gross Loans and Leases (Millions)   $900

                                      $800

                                      $700                                                      $404
                                                                        $298          $391
                                      $600
                                                           $219                                         ADC
                                      $500
                                                $64                                             $111    Other CRE
                                      $400                              $145          $105
                                                $123       $147                                         All Other Loans
                                      $300

                                      $200                                                      $375
                                                                        $325          $330
                                                $276       $285
                                      $100

                                        $0
                                             Dec-2004   Dec-2005    Dec-2006 Dec-2007        Dec-2008
                                                                   Period Ended

Source: Call Reports for Cooperative.

The FDIC’s December 2006 guidance, entitled, Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, recognizes that there are substantial
risks posed by CRE concentrations, especially ADC concentrations. Such risks include
unanticipated earnings and capital volatility during a sustained downturn in the real estate
market. The December 2006 guidance defines institutions with significant CRE
concentrations as those institutions reporting loans for construction, land development,
and other land (referred to in this report as ADC) representing 100 percent or more of
total capital; or institutions reporting total CRE loans representing 300 percent or more of
total capital where the outstanding balance of CRE has increased by 50 percent or more
during the prior 36 months. Due to the risks associated with CRE and ADC lending,
regulators consider institutions with significant CRE and ADC concentrations to be of
greater supervisory concern.

As of December 31, 2007, Cooperative’s non-owner occupied CRE loans represented
584 percent of the institution’s total risk-based capital, well in excess of the level defined
in the 2006 guidance as warranting supervisory concern. This level was also well above
Cooperative’s aggregate CRE lending limit as defined in the institution’s loan policy.
Further, Cooperative’s ADC loan concentrations at year-end 2007 represented
469 percent of total risk-based capital, significantly higher than the level defined in the
2006 guidance as warranting supervisory concern. As of December 31, 2007,
Cooperative ranked in the 98th percentile of its peer group for ADC loan concentrations.
Figure 2 illustrates the trend in Cooperative’s ADC concentration relative to its peer
group in the years before its failure.




                                                                                  4
Figure 2: Cooperative’s ADC Concentration Compared to Peer Group
                              1000
                                                                                                           *
                                                                                                      912%
                              900

                              800
 ADC Loans to Total Capital




                              700
                                                  Cooperative
                              600                 Peer Group Average

                              500                                                       469%

                              400                                           375%
                                                          326%
                              300

                              200
                                           128%
                              100                                              117%          124%
                                                             104%                                         111%
                                            81%
                                0
                                            4




                                                              5




                                                                                6




                                                                                             7




                                                                                                           8
                                         00




                                                           00




                                                                             00




                                                                                          00




                                                                                                        00
                                       -2




                                                         -2




                                                                           -2




                                                                                        -2




                                                                                                      -2
                                       c




                                                        c




                                                                          c




                                                                                        c




                                                                                                      c
                                     De




                                                      De




                                                                        De




                                                                                      De




                                                                                                    De
                                                                    Period Ending
Source: UBPRs for Cooperative.
* The sharp increase in the ADC loan concentration in December 2008 resulted from a decline in
Cooperative’s capital rather than growth in ADC lending.

In addition to credit concentrations, Cooperative’s loan portfolio had other high-risk
characteristics. According to an internal management analysis, almost 97 percent of the
$432.5 million in CRE loans that Cooperative held on June 14, 2007 was secured by
investment properties. Loans for investment property, such as land and vacation rental
property, are considered riskier than loans secured by a borrower’s permanent residence.
This is because loans for investment property are more sensitive to such factors as
adverse economic and real estate market conditions. In addition, more than half of
Cooperative’s CRE loans required interest-only payments. Such loans can be risky
because they do not require principal payments and can, therefore, mask a borrower’s
inability to ultimately repay the loan.

Also contributing to the high-risk nature of Cooperative’s loan portfolio was a
speculative Residential Lot Loan Program introduced in 2002 that provided borrowers
with funding to purchase lots for the purpose of building on them in the near future. In
2007, Cooperative expanded and modified this program to support an incentive that
various developers were offering to buyers whereby the developer would pay the interest
on the loans for a period of 18-24 months using an interest reserve account at the
institution. Many of the loans under the program were approved based on minimal
repayment qualifications, required no down payment, and allowed interest-only
payments. Cooperative discontinued the Residential Lot Loan Program in August 2008
due to slowing lot sales, declining real estate values, and borrowers not making payments
after their interest reserves were exhausted.



                                                                                5
At the time of the September 2007 examination report, adversely classified assets totaled
approximately $11.3 million, or 13 percent of Cooperative’s Tier 1 Capital plus the
Allowance for Loan and Lease Losses (ALLL). By the November 2008 examination,
adversely classified assets had jumped to almost $143 million,4 or 182 percent of Tier 1
Capital plus the ALLL. The majority of the $143 million was comprised of ADC loans,
including the entire Residential Lot Loan Program portfolio valued at $32 million (or
22 percent of total classifications). According to its Annual Report on Form 10-K filed
with the Securities and Exchange Commission, Cooperative recorded a net loss of
$44.5 million for the year ended December 31, 2008.

Loan Underwriting, Credit Administration, and Related Monitoring

Weak loan underwriting, credit administration, and related monitoring practices were key
factors in the asset quality problems that developed when Cooperative’s real estate
lending markets deteriorated. Prior to 2006, examiners raised little concern in this area
and considered the institution’s asset quality to be strong. However, examiners identified
numerous loan underwriting and credit administration weaknesses during the July 2006
examination and advised Cooperative’s Board that these weaknesses were increasing the
institution’s risk profile. Examiners noted that these weaknesses were symptomatic of
the institution’s rapid loan growth and weak oversight of, and organization within, the
lending function. New and repeat loan underwriting, credit administration, and related
monitoring weaknesses were also identified in the September 2007 and November 2008
examinations. Examiners reported the following types of weaknesses in this area
between 2006 and 2008 based on the loans they reviewed.

Loan Underwriting

        •    Inadequate analysis of borrower repayment capabilities (e.g., a lack of cash flow
             analysis, inaccurate computations of cash flow and debt service coverage ratios).
        •    Little or no borrower equity in real estate loans and reliance on collateral (such
             as the sale of real estate) as a primary source of repayment.
        •    Instances in which loans were made for residential lots with little or no
             documentation or verification of borrower income, employment, or repayment
             capability.
        •    Liberal loan renewals and extensions, such as renewing interest-only loans under
             the Residential Lot Loan Program multiple times for individual borrowers.
        •    Failure to establish and enforce appropriate loan repayment programs following
             payment deferrals, including the capitalization of interest on loans or providing a
             separate loan for the purpose of financing interest.
        •    Renewing credits without sufficient or current financial information.
        •    Not ordering, receiving, and analyzing real estate appraisals independent of the
             lending function.




4
    This figure includes $6.6 million in contingent liabilities.


                                                          6
Credit Administration

    •   A lack of input and oversight from the institution’s Credit Administrator for new
        loans and credit renewals.
    •   Untimely updates of the institution’s loan policy to reflect changes in business
        activities; untimely distribution of updates to the loan policy to loan officers
        resulting in delayed implementation of new policy requirements; and untimely
        Board review and approval of real estate lending guidelines in the loan policy as
        prescribed by Appendix A, Interagency Guidelines for Real Estate Lending
        Practices, of Part 365, Real Estate Lending Standards, of the FDIC Rules and
        Regulations.
    •   Inadequate definitions for internal loan risk grades (i.e., a lack of financial ratios
        with which to distinguish one loan grade from another).
    •   Instances in which loan risk grades were not changed until problems with
        payments occurred or extensions or renewals were requested by the borrower.
    •   A lack of an annual review of the institution’s largest credit relationships
        independent of the loan origination function, including an analysis of the
        borrower’s and guarantor’s repayment capability on a global cash flow basis, an
        assessment of the current status of the business or project, and an evaluation of
        secondary sources of repayment.

Monitoring

    •   A lack of a comprehensive monitoring and reporting process to assist the Board
        in assessing the overall risk of the institution’s CRE lending activities and
        making related policy decisions. Such a process could have provided the Board
        with regular information on the performance and migration of loans within the
        portfolio as well as such detailed information as tenant- versus owner-occupied
        loans, secured versus unsecured loans, and the use of multiple extensions,
        interest reserves, and interest-only payments.
    •   A lack of CRE loan portfolio stress testing, such as tracking loss rates by loan
        category and gradually increasing loss rates to determine the resulting effect on
        earnings, capital, and liquidity.
    •   Insufficient market analysis of areas where the institution had large loan
        concentrations.
    •   An inadequate ALLL methodology.
    •   Underlying weaknesses identified by third-party loan reviews not addressed in a
        timely manner.

Apparent violations or contraventions were also noted in such as areas as (1) extending
credit to insiders as prescribed in the Federal Reserve Board Regulation O;
(2) conducting real estate appraisals as defined in Part 323, Appraisals, of the FDIC
Rules and Regulations; (3) reporting loans that exceed supervisory loan-to-value limits as
defined in Appendix A to Part 365; and (4) soliciting and accepting brokered deposits as
defined in Part 337, Unsafe and Unsound Banking Practices, of the FDIC Rules and
Regulations.


                                              7
Reliance on Wholesale Funding Sources

In the years preceding its failure, Cooperative became increasingly dependent on
wholesale funding sources, particularly FHLB borrowings and brokered deposits, to fund
its loan growth and maintain adequate liquidity. The institution’s management
determined that borrowing or acquiring funds could be more cost-effective and
expeditious than growing deposits through the institution’s branch network. Figure 3
illustrates the trend in Cooperative’s net non-core funding dependence ratio5 for the years
ended 2004 through 2008. Throughout this period, Cooperative’s net non-core funding
dependence ratio was approximately two times greater than its peer group. Cooperative
also ranked in the 88th to 97th percentile of its peer group for net non-core funding
dependence during this period. Such rankings indicate that Cooperative’s potential
volatile funding dependence was higher than that of almost all of the other institutions in
its peer group.

Figure 3: Cooperative’s Net Non-Core Funding Dependence Ratio Compared
          to Peer Group
    Net Non-Core Funding Dependence Ratio




                                            70
                                                             Cooperative
                                            60                                                                                59%
                                                             Peer Group Average
                                                                                                 49%           49%
                                            50
                                                                               45%
                                                             40%
                                            40

                                            30
                                                                                                                                     30%
                                                                                                 24%               26%
                                            20                                 22%
                                                             21%
                                            10

                                            0
                                                         4




                                                                           5




                                                                                             6




                                                                                                               7




                                                                                                                                 8
                                                      00




                                                                        00




                                                                                          00




                                                                                                            00




                                                                                                                              00
                                                    -2




                                                                      -2




                                                                                        -2




                                                                                                          -2




                                                                                                                            -2
                                                 ec




                                                                   ec




                                                                                     ec




                                                                                                       ec




                                                                                                                         ec
                                             D




                                                                   D




                                                                                     D




                                                                                                       D




                                                                                                                     D




                                                                                Period Ended
Source: UBPR data for Cooperative.

When properly managed, wholesale funding sources offer important benefits, such as
ready access to funding in national markets when core deposit growth in local markets
lags planned asset growth. However, wholesale funding sources also present potential

5
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress. For purposes of this report, the terms non-core funding and wholesale funding have
substantially the same meaning.


                                                                                                 8
risks, such as higher costs and increased volatility. Placing heavy reliance on potentially
volatile funding sources to support asset growth is risky because access to these funds
may become limited during distressed financial or economic conditions. Under such
circumstances, institutions could be required to sell assets at a loss in order to fund
deposit withdrawals and other liquidity needs.

Examiners determined that Cooperative’s liquidity and funds management practices were
generally satisfactory between 2004 and 2007, as indicated by the supervisory component
ratings of “2” assigned for liquidity.6 However, examiners also expressed concern in the
examination reports issued during this period regarding Cooperative’s low liquidity levels
and heavy reliance on wholesale funding sources. Examiners recommended in these
reports that Cooperative strengthen its liquidity risk management policy and practices in a
number of areas. Of note, examiners recommended in 2007 that Cooperative develop a
contingency plan and incorporate the plan into the institution’s liquidity management
policy. However, Cooperative’s actions to address the risks associated with its heavy and
growing reliance on wholesale funding sources were not adequate.

In September 2008, Cooperative recorded an other-than-temporary impairment charge of
$9.1 million for the stock it held in the Federal National Mortgage Association (Fannie
Mae) and Federal Home Loan Mortgage Corporation (Freddie Mac). As discussed more
fully in the Implementation of PCA section of this report, the impairment charge was
large enough to lower Cooperative’s capital category for PCA purposes from Well
Capitalized to Adequately Capitalized. As a result, the institution’s access to brokered
deposits was restricted, straining its liquidity. By December 2008, Cooperative’s weak
credit risk profile was impairing the institution’s ability to access needed funds from
outside sources, and regulators were requiring the institution to submit daily reports on its
liquidity position.

Internal Audit Program

Deficiencies in Cooperative’s internal audit program contributed to the weak risk
management practices that caused the institution to fail. Internal audits are a key control
for proactively identifying and remediating internal control weaknesses, including
weaknesses related to loan underwriting and credit administration. The March 2004
examination report noted that Cooperative’s internal audit program appeared to be
understaffed for much of 2003 and, as a result, the 2003 audit schedule had not been
completed. The report also noted that although a written risk assessment had been
prepared by the institution’s internal auditor, the assessment was not presented to the
Audit Committee or used in preparing the audit schedule. The June 2005 examination
report noted various weaknesses in Cooperative’s internal audit program, including a lack

6
  Pursuant to the Uniform Financial Institutions Rating System (UFIRS), federal and state regulators assign
supervisory ratings to financial institutions based on the results of safety and soundness examinations and
other supervisory activities. Ratings consist of a “composite” rating reflecting the institution’s overall
financial condition and operations and six “component” ratings represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Ratings are assigned on a scale of 1 to 5, with 1 representing the least
supervisory concern and 5 representing the greatest supervisory concern.


                                                     9
of proper separation of duties to ensure auditor independence. The July 2006
examination report identified a number of new and repeat deficiencies pertaining to
Cooperative’s audit program, including the following:

   •   Internal auditors were charged with both audit and operational responsibilities in
       several areas and reported administratively to the institution’s management,
       diminishing their independence.
   •   Auditors lacked the necessary knowledge and training to effectively conduct some
       audits.
   •   Audit risk analysis and planning did not ensure that audit coverage was
       commensurate with risk. For example, a full commercial loan audit had not been
       performed since 2004 despite extensive growth in this area.
   •   Several audits were either not performed timely or were deficient in scope.
   •   Audit reports lacked a description of the scope of work performed, a
       determination of the underlying causes and significance of findings, and
       conclusions regarding the severity and pervasiveness of findings.
   •   The internal audit department did not track exceptions identified by outside
       entities, including recommendations made by regulators and other third parties, to
       ensure such exceptions were appropriately corrected. Of note, loan underwriting
       and administration weaknesses identified through an external loan review were
       not generally being resolved.

In the November 2008 examination, examiners noted a number of other new and repeat
deficiencies pertaining to Cooperative’s internal audit program. Among other things,
examiners noted that Cooperative needed to develop and implement a comprehensive
corporate-wide risk assessment program, enhance its audit exception tracking, better
monitor corrective action plans, revise its internal audit policies, and strengthen the
oversight of the Audit Committee.


The FDIC’s Supervision of Cooperative
Through its supervisory efforts, the FDIC identified key risks in Cooperative’s operations
and brought these risks to the attention of the institution’s Board and management in
examination reports. Such risks included Cooperative’s rapid loan growth and credit
concentrations; weak loan underwriting, credit administration, and related monitoring
practices; an inadequate internal audit program; risky funds management practices; and
apparent violations of regulations and policy. The examination reports issued in the years
preceding Cooperative’s failure also contained numerous recommendations to address
these and other risks identified by examiners.

As discussed more fully below, the FDIC determined that Cooperative’s overall financial
and operational condition was generally satisfactory prior to the November 2008
examination and did not impose an enforcement action until March 2009. The FDIC
generally relied on recommendations in examination reports to address the institution’s
weak risk management practices identified by examiners before November 2008. In


                                           10
retrospect, a stronger supervisory response at earlier examinations may have been prudent
in light of the extent and nature of the institution’s risk profile. Such a response could
have influenced Cooperative’s Board and management to constrain its excessive risk-
taking during the institution’s growth period. Further, it may have prompted the Board
and management to take more timely and adequate action to address the concerns raised
by examiners, thereby mitigating, to some extent, the losses incurred by the DIF.

Supervisory History

The FDIC, in conjunction with the North Carolina Commissioner, provided ongoing
supervision of Cooperative by conducting regular on-site risk management examinations
and performing offsite monitoring procedures. Table 2 summarizes key information
pertaining to the on-site risk management examinations that the FDIC and North Carolina
Commissioner conducted of Cooperative between 2004 until the institution’s failure.

Table 2: On-site Examinations of Cooperative
                                  Regulator
                                                          Supervisory           Informal or Formal
    Examination Date            Conducting the
                                                            Ratings                Action* Taken
                                 Examination
         11/10/08               FDIC and State              555554/5                    C&D
         09/10/07                   State                   222222/2                    None
         07/24/06                   FDIC                    222222/2                    None
         06/20/05                   State                   212221/2                    None
         03/15/04                   FDIC                    212222/2                    None
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
         on the Net system for Cooperative.
* Informal enforcement actions often take the form of Bank Board Resolutions or Memoranda of
Understanding. Formal enforcement actions often take the form of Cease and Desist (C&D) orders, but
under severe circumstances can also take the form of insurance termination proceedings.

The FDIC’s offsite monitoring procedures generally consisted of contacting the
institution’s management from time to time to discuss current and emerging business
issues and using automated tools7 to help identify potential supervisory concerns. These
procedures did not identify any serious concern at Cooperative until July 2008, when an
analysis of the institution’s March 31, 2008 Call Report information was completed. The
July 2008 analysis noted that a decline in Cooperative’s real estate lending markets
appeared to be negatively affecting the quality of the institution’s loan portfolio. The
analysis also found that the risk associated with the institution’s reliance on wholesale
funding sources was increasing. Because an on-site risk management examination was
scheduled for the 4th quarter of 2008, examiners decided to review these risks in greater
detail during the examination (versus conducting a visitation in the interim).


7
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating (SCOR) system and the Growth Monitoring System
(GMS). Both tools use statistical techniques and Call Report data to identify potential risks, such as
institutions likely to receive a supervisory downgrade at the next examination or institutions experiencing
rapid growth and/or a funding structure highly dependent on non-core funding sources.


                                                     11
Based on the results of the November 2008 examination, the FDIC determined that
Cooperative’s financial condition was critically deficient and that the probability of the
institution’s failure was high. Examiners assigned Cooperative a supervisory composite
rating of “5” and prepared a C&D to address the institution’s problems. Cooperative
entered into a stipulation and consent to the issuance of a C&D on March 10, 2009.
Among other things, the C&D required that the institution’s Board members obtain
appropriate training and increase their participation in the affairs of the institution. The
C&D also required Cooperative to have and retain qualified management, reduce its
credit concentrations, improve its lending policies and practices, and develop plans to
strengthen its capital and funds management practices. The C&D defined specific
timeframes for meeting these requirements and directed the institution to submit periodic
progress reports describing its compliance.

The North Carolina Commissioner closed Cooperative on June 19, 2009, because the
institution was unable to obtain adequate capital to support its operations and lacked
sufficient liquidity.

Supervisory Response to Key Risks

At the time of the July 2006 examination, economic conditions in Cooperative’s lending
markets were favorable and the performance of the institution’s assets was satisfactory.
According to the July 2006 examination report, total adversely classified assets were a
manageable $4 million, or 5.2 percent of Tier 1 Capital and the ALLL. In addition, these
classifications were centered in the classification category of Substandard. Based on this
information and management’s agreement to address the weaknesses identified during the
examination, examiners determined that the overall financial and operational condition of
Cooperative was satisfactory and assigned a supervisory rating of 22222/2.

Notwithstanding the financial condition of Cooperative in 2006, the examination report
also described numerous concerns related to the institution’s risk management practices,
including “material weaknesses” in management’s oversight and administration of the
institution. Such concerns, several of which are summarized below, are not consistent
with the UFIRS definition of a “2” rating, which is generally defined as an institution
with satisfactory risk management practices relative to its size, complexity, and risk
profile.

   •   Rapid growth and loan concentrations. Examiners noted that Cooperative’s
       loan portfolio had grown almost 60 percent during the prior 18-month period,
       without the benefit of an effective strategic plan. In addition, the institution had
       significant concentrations in both construction and land development loans and
       beach resort property totaling 477 percent and 226 percent of Tier 1 Capital,
       respectively.

   •   Weak loan underwriting and credit administration. Examiners noted that the
       institution’s underwriting and administration practices for the construction,
       commercial, and CRE loan portfolios lacked consistency and appropriate



                                             12
       oversight. Administration and analysis were not commensurate with the size,
       complexity, and level of risk associated with the loans and relationships reviewed
       by examiners. Examiners determined that weaknesses in this area presented
       undue risk to the loan portfolio and increased the institution’s risk profile.
       Examiners commented that management needed to establish prudent and standard
       underwriting and administration guidelines across the entire organization to foster
       a strong commercial credit culture.

   •   Reliance on non-core funding. Examiners noted that the institution’s liquidity
       was strained and that management needed to adopt a more proactive role in
       monitoring and managing the institution’s liquidity position.

   •   Apparent violations or contraventions of regulations and policy. Examiners
       noted nine apparent violations or contraventions pertaining to such areas as
       Regulation O, appraisals, lending practices, and interest rate risk management.
       Examiners commented that additional efforts were needed to ensure future
       compliance, particularly with respect to matters involving bank insiders.

   •   Weak internal audit program. Examiners noted that both the scope and quality
       of the institution’s internal audit program needed improvement. Specifically, the
       institution’s internal audit planning, risk analysis, and oversight was weak; the
       scope, frequency, and content of reports was inadequate; the tracking of
       exceptions identified during audits was not sufficient; and auditors had both
       operational and audit responsibilities in several areas, impairing their
       independence.

The July 2006 examination report contained a total of 64 recommendations to address the
weak risk management practices that examiners had identified. Cooperative’s
management agreed to address the majority of these recommendations by year-end 2006.
On March 7, 2007, an FDIC examiner contacted a senior management official at
Cooperative to discuss the institution’s progress in implementing corrective actions from
the July 2006 examination. The management official advised the examiner that all of the
recommendations had either been corrected or would be corrected within the timelines
defined in the July 2006 report.

Examiners determined during the September 2007 examination that Cooperative had
failed to correct a number of the weaknesses identified in the July 2006 report. Of note,
the institution’s appraisal ordering and review process continued to lack independence; a
process for tracking and monitoring loan policy exceptions had not been implemented;
loan file maintenance was inadequate; practices for identifying, monitoring, and
controlling CRE concentration risk were not adequate; ADC loans continued to be made
based on little or no equity; and the internal audit program was deficient in several areas.
In addition, Cooperative’s ADC loan portfolio increased by almost $75 million following
the July 2006 examination, and the institution’s dependence on wholesale funding
sources remained high. The September 2007 examination report contained additional




                                             13
recommendations to address the weak risk management practices identified by
examiners.

In retrospect, the FDIC could have taken stronger supervisory action at earlier
examinations, particularly during the July 2006 examination, to address Cooperative’s
weak risk management practices. Such action could have included lowering the
institution’s supervisory rating and/or issuing an enforcement action that required the
Board and management to (1) commit to a written plan and timeline for addressing the
key risks identified by the examiners and (2) provide the FDIC with written progress
reports detailing the institution’s actions relative to the plan. Among other things, the
plan could have required Cooperative to reduce its ADC loan concentrations and
dependence on wholesale funding sources. Had there been an enforcement action in
2006, it is more likely that the FDIC would have conducted a visitation prior to the
September 2007 examination to assess Cooperative’s progress in addressing examiner
recommendations. Based on the results of a visitation, the FDIC may have decided to
take stronger supervisory action, if appropriate. Such actions would have further elevated
supervisory attention to the key risks at Cooperative.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules
and Regulations implements the requirements of PCA by establishing a framework of
restrictions and mandatory supervisory actions that are triggered based on an institution’s
capital levels. Based on the supervisory actions taken with respect to Cooperative, the
FDIC properly implemented applicable PCA provisions of section 38 of the FDI Act.

Effective September 30, 2008, Cooperative recorded an other-than-temporary impairment
charge of $9.1 million for the stock it held in Fannie Mae and Freddie Mac. This charge
was taken due to a decline in the market value of the stock. The impairment charge
caused a reduction in Cooperative's capital, and, as a result, the institution’s capital ratios
fell from Well Capitalized to Adequately Capitalized as defined in Part 325. Section 29,
Brokered Deposits, of the FDI Act and Part 337 of the FDIC Rules and Regulations
prohibit institutions from accepting, renewing, or rolling over brokered deposits, absent a
waiver from the FDIC. On October 2, 2008, the FDIC received a substantially complete
request from Cooperative for a brokered deposit waiver.

On November 20, 2008, the FDIC formally notified Cooperative’s Board that, based on
its Call Report for the quarter ended September 30, 2008, the institution was considered
Adequately Capitalized for purposes of Part 325. The notification included a reminder
that Cooperative was subject to certain restrictions, including a prohibition on the
acceptance, renewal, or roll-over of brokered deposits without a waiver from the FDIC
and limitations on the interest rates that could be paid on deposits. Cooperative made a
concerted effort in late 2008 and early 2009 to replace its maturing brokered deposits
with Internet deposits. However, examiners noted instances in which the institution had
accepted brokered deposits totaling $22.1 million between October 1, 2008 and
December 31, 2008, in apparent violation of Part 337. Examiners brought these apparent


                                              14
violations to the attention of the institution’s Board in the November 2008 examination
report. On December 19, 2008, Cooperative withdrew its brokered deposit waiver
request.

On February 3, 2009, the FDIC notified Cooperative that, based on its Call Report for the
quarter ended December 31, 2008, the institution’s capital category had fallen to
Undercapitalized. As a result, Cooperative was prohibited under section 29 and Part 337
from accepting, renewing, or rolling over brokered deposits and was required to provide
the FDIC with a capital restoration plan. Table 3 illustrates Cooperative’s capital levels
relative to the PCA thresholds for Well Capitalized institutions at the close of the last 2
quarters of 2008.

Table 3: Cooperative’s Capital Levels Relative to PCA Thresholds for Well
         Capitalized Institutions
  Capital Ratio       Well Capitalized           Sept-08           Dec-08             Dec-08
                        Threshold                              (Original Filing)   (As Amended)
 Tier 1 Leverage        5% or more                6.52%             5.40%              3.48%
 Capital
 Tier 1 Risk-Based       6% or more               7.73%             6.66%             4.41%
 Capital
 Total Risk Based        10% or more              8.99%             7.94%             5.70%
 Capital
Source: UBPRs for Cooperative and section 38 of the FDI Act.

The March 12, 2009 C&D directed Cooperative to, among other things, develop a
detailed capital restoration plan and achieve and maintain a Tier 1 leverage capital ratio
of at least 6 percent and a total risk-based capital ratio of at least 10 percent. Cooperative
provided the FDIC with a written capital restoration plan on March 24, 2009. In addition,
the institution explored a number of alternatives to increase its capital ratios. Such
alternatives included soliciting investors for capital, selling assets, and seeking funds
from the U.S. Treasury’s Troubled Asset Relief Program. However, these efforts were
not successful. The FDIC subsequently determined that Cooperative’s March 2009
capital restoration plan was not acceptable. The North Carolina Commissioner closed
Cooperative on June 19, 2009 due to a lack of sufficient capital and liquidity to support
the institution’s operations.


Corporation Comments
We issued a draft of this report on December 19, 2009. DSC management subsequently
provided us with additional information for our consideration. We made certain changes
to the report that we deemed appropriate based on the information that DSC management
provided. On January 6, 2010, the Director, DSC, provided a formal, written response to
the draft report. The response is provided in its entirety as Appendix 4 of this report.




                                                  15
The DSC Director’s response reiterates key causes of Cooperative’s failure discussed in
this report and notes that the Board failed to implement risk management
recommendations made by regulators. The response also cites supervisory activities,
discussed in the report, that were undertaken to assess and address risks at the institution
prior to its failure.




                                             16
                                                                                 Appendix 1

                      Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of Cooperative’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Cooperative,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from October 2009 to December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit focused on Cooperative’s business operations between 2004 until
its failure on June 19, 2009. Our work also included an evaluation of the regulatory
supervision of the institution during this same time period.

To accomplish the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports prepared by the FDIC and North Carolina
         Commissioner from 2004 through 2008.

     •   Reviewed the following:

           •   Bank data and correspondence maintained in DSC’s Atlanta Regional Office
               and Raleigh, North Carolina, Field Office.

           •   Relevant reports prepared by the Division of Resolutions and Receiverships
               (DRR) and DSC’s Washington, D.C. Office staff relating to the institution’s
               failure.

           •   Pertinent FDIC regulations, policies, procedures, and guidance.




                                              17
                                                                                 Appendix 1

                        Objectives, Scope, and Methodology

             •   Relevant records maintained by the institution’s external auditor, Dixon
                 Hughes PLLC of Greenville, North Carolina.

   •       Interviewed the following officials:

             •   DSC examination staff in Washington, D.C., the Atlanta Regional Office,
                 and Raleigh Field Office.

             •   A DRR official in the Dallas, Texas Regional Office and a DRR contractor
                 working at the institution’s Wilmington, North Carolina office.

       •   Met with examiners of the North Carolina Commissioner’s office to discuss their
           role in the supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, examination
reports, and interviews of examiners to understand Cooperative’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.


                                                  18
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Annual Report on An annual report required by the Securities and Exchange Commission
Form 10-K        that provides a comprehensive summary of a public company's
                    performance. The report includes information such as company history,
                    organizational structure, executive compensation, equity, subsidiaries,
                    and audited financial statements, among other information.
Call Report         Reports of Condition and Income, often referred to as Call Reports,
                    include basic financial data for insured commercial banks in the form of
                    a balance sheet, an income statement, and supporting schedules.
                    National banks, state member banks, and insured nonmember banks are
                    required by the Federal Financial Institutions Examination Council to
                    file a Call Report with the FDIC as of the close of business on the last
                    day of each calendar quarter.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Contingency         A written plan that defines strategies for addressing liquidity shortfalls in
Funding Plan        emergency situations. Such plans delineate policies to manage a range
                    of stress environments, establish clear lines of responsibility, and
                    articulate clear implementation and escalation procedures. Contingency
                    funding plans should be regularly tested and updated to ensure that they
                    are operationally sound. DSC uses the term contingency funding plan
                    and contingency liquidity plan interchangeably.

Federal Home        One of 12 Federal Home Loan Banks from which financial institutions
Loan Bank           in America borrow funds to finance housing, economic development,
(FHLB)              infrastructure, and jobs.

Interest Reserve    An interest reserve account allows a lender to periodically advance loan
Account             funds to pay interest charges on the outstanding balance of the loan. The
                    interest is capitalized and added to the loan balance. Frequently, ADC
                    loan budgets will include an interest reserve to carry the project from
                    origination to completion and may cover the project’s anticipated sell-
                    out or lease-up period.



                                             19
                                                                                   Appendix 2

                                Glossary of Terms

Term                Definition
Memorandum of       A written agreement between the FDIC and an FDIC-supervised
Understanding       institution considered to be of supervisory concern, but which has not
                    deteriorated to a point warranting formal action.
Other-than-         From an accounting standpoint, an "impairment" of a debt or equity
Temporary           security occurs when the fair value of the security is less than its
Impairment          amortized cost basis, i.e., whenever a security has an unrealized loss.
Charge              An other than temporary impairment occurs, for example, when it is
                    probable that an institution will be unable to collect all amounts due
                    according to the contractual terms of the debt security not impaired at
                    acquisition.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq, implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and
                    (5) Critically Undercapitalized.
Substandard         One of three types of classifications used by examiners to describe
                    adversely classified assets. The term is generally used to describe an
                    asset that is inadequately protected by the current sound worth and
                    paying capacity of the obligor or of the collateral pledged, if any.
                    Substandard assets have a well-defined weakness or weaknesses that
                    jeopardize the liquidation of the debt. Substandard assets are
                    characterized by the distinct possibility that the institution will sustain
                    some loss if the deficiencies are not corrected.
Uniform Bank        The UBPR is an individual analysis of institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance.
Report (UBPR)       The report is produced by the Federal Financial Institutions Examination
                    Council for the use of banking supervisors, bankers, and the general
                    public and is produced quarterly from data reported in Reports of
                    Condition and Income submitted by banks.




                                             20
                                                                        Appendix 3

                            Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
GMS      Growth Monitoring System
OIG      Office of Inspector General
PCA      Prompt Corrective Action
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                     21
 Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990
                                                                      Division of Supervision and Consumer Protection


                                                                            January 6, 2010
MEMORANDUM TO:                         Stephen Beard
                                       Assistant Inspector General for Material Loss Reviews

FROM:                                  Sandra L. Thompson
                                       Director

SUBJECT:                               Draft Audit Report Entitled, Material Loss Review of Cooperative
                                       Bank, Wilmington, North Carolina (Assignment No. 2009-069)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Cooperative Bank (Cooperative) which failed on June 19, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on December 14, 2009.

Cooperative failed because its Board and management did not adequately manage the risk
associated with its aggressive real estate lending, particularly in the area of residential
acquisition, development, and construction (ADC) loans. When economic conditions in North
Carolina began to deteriorate in mid-2008, weak loan underwriting, credit administration, and
related monitoring practices resulted in a significant decline in the quality of the institution’s
loan portfolio, especially its ADC loans. The provisions and losses associated with this decline
depleted the institution’s earnings, eroded its capital and strained its liquidity. The North
Carolina Office of the Commissioner of Banks (NCCOB) closed Cooperative in June 2009
because it lacked sufficient capital and liquidity to support its operations.

The Report indicates that DSC and the NCCOB conducted regular on-site examinations of
Cooperative consistent with statutory requirements and further analyzed its condition utilizing
various offsite monitoring tools. The Report concludes that a stronger supervisory response,
particularly at the July 2006 examination, may have constrained Cooperative's excessive risk
taking. At that time, FDIC made numerous recommendations to Cooperative's Board and
management to improve its risk management practices. When Cooperative's Board and
management failed to implement those recommendations, DSC implemented a formal
enforcement action more directly supervising Cooperative's Board.

Thank you for the opportunity to review and comment on the Report.

                                                      - 22 -
